APPENDIX 1 TO BRIEF IN OPPOSITION
2010-UP-367 – Martin v. SCDC
Op. No. 2010-UP-367 (S.C. Ct. App.
filed July 14, 2010)

App. 1
2010-UP-367 – Martin v. SCDC
THIS OPINION HAS NO PRECEDENTIAL VALUE.
IT SHOULD NOT BE CITED OR RELIED ON AS
PRECEDENT IN ANY PROCEEDING EXCEPT AS
PROVIDED BY RULE 268(d)(2), SCACR.
THE STATE OF SOUTH CAROLINA
In The Court of Appeals
Orlando Martin, Respondent,
v.
South Carolina Department of Corrections, Appellant.
Appeal From Administrative Law Court
Deborah Durden, Administrative Law Court Judge
Unpublished Opinion No. 2010-UP-367
Submitted June 1, 2010 Filed July 14, 2010
REVERSED
Michael Vincent Laubshire, of Columbia, for Appellant.
William Levern Pyatt, of Columbia, for Respondent.
PER CURIAM: The South Carolina Department of
Corrections (the Department) appeals the Administrative Law Court’s (ALC) order instructing the Department to recalculate Orlando Martin’s sentence. We
reverse.[1]

App. 2
On June 14, 2004, an Aiken County grand jury indicted
Martin for second-degree arson, and on July 22, 2005,
Martin pled guilty. The plea court sentenced Martin to
ten years’ imprisonment, suspended upon the service
of “time served,”[2] and ﬁve years’ probation. Thereafter,
a probation arrest warrant was issued. On June 29,
2007, the probation revocation court revoked Martin’s
probation and required Martin to serve ﬁve years of
the original sentence and then be reinstated on probation.[3] The Form 9[4] revocation order indicated Martin
previously served 562 days on the sentence.
On June 3, 2009, and July 29, 2009, Martin submitted
a Step One and Step Two Grievance to the Department
seeking credit for the 562 days he served prior to pleading guilty. The Department denied both grievances, explaining the 562 days was previously applied to
Martin’s ten year sentence, reducing the total sentence
to eight years’ and 168 days. Martin appealed to the
ALC, arguing the Department failed to apply the 562
days he served to his current ﬁve year sentence rather
than applying the time served to his original ten-year
sentence. The ALC reversed and ordered the Department to “recalculate [Martin’s] sentence on the basis of
a 5-year sentence commencing June 29, 2007[,] with
credit for 562 days previously served on the sentence
at that time.” This appeal followed.
In an appeal of the ﬁnal decision of an administrative
agency, this court shall not substitute its judgment for
that of the ALC as to ﬁndings of fact however, it may
reverse or modify decisions which are controlled by an

App. 3
error of law. Sanders v. S.C. Dep’t of Corr., 379 S.C. 411,
417, 665 S.E.2d 231, 234 (Ct. App. 2008).
Here, the ALC misinterpreted the effect of the revocation order. Martin served 562 days prior to his guilty
plea, and when the plea court sentenced Martin, the
plea court gave Martin credit for this time served.
Then, when Martin’s probation was revoked, the probation court imposed ﬁve years of the suspended portion of the sentence. The Form 9 revocation order
indicated Martin previously served 562 days of the
sentence. The 562 days previously served is not applied
to the ﬁve-year sentence imposed at the probation revocation hearing. Rather, it applied toward Martin’s
original sentence of ten years’ imprisonment. Accordingly, we ﬁnd the ALC erred in (1) ﬁnding the probation
revocation court’s order revoked the original ten year
sentence and reduced the sentence to ﬁve years’ imprisonment, and (2) instructing the “sentence be recalculated on the basis of a 5-year sentence commencing
June 29, 2007[,] with credit for 562 days previously
served on the sentence at that time.” Therefore, we reverse the ALC’s order and reinstate the decision of the
Department.

App. 4
REVERSED.
FEW, C.J., WILLIAMS, J., and CURETON, A.J., concur.
[1]

We decide this case without oral argument pursuant to Rule
215, SCACR.
[2]
Martin served 562 days prior to sentencing.
[3]
Martin did not serve any time awaiting his probation revocation hearing.
[4]
Form 9 is created by the South Carolina Department of Probation, Parole, and Pardon Services, and is the form order used by
the circuit court in probation revocation proceedings.

